No. 21-341
IN THE

Supreme Court of the United States
__________________
WILLIAM J. COST AND WILLIAM J. COST, JR.,
Petitioners,
v.
BOROUGH OF DICKSON CITY, MICHAEL RANAKOSKI
AND MICHAEL MCMORROW,
Respondents.
__________________
On Petition for Writ of Certiorari
To the United States Court of Appeals
for the Third Circuit
__________________
RESPONDENTS’ BRIEF IN OPPOSITION
TO PETITION FOR WRIT OF CERTIORARI
__________________
PATRICK J. MURPHY, ESQUIRE
Counsel of Record
BARDSLEY, BENEDICT + CHOLDEN, LLP
201 Lackawanna Avenue, Suite 300C
Scranton, PA 18503
(570) 344-9444
pmurphy@bbclawfirm.com
Counsel for Respondents
September 30, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Whether the Court shoulder review a decision that
creates no circuit split, and that correctly applied the
accepted legal precedent for evaluating whether police
officers possessed reasonable suspicion to detain
Plaintiff-son and probable cause to arrest Plaintifffather under the totality of the circumstances, and
whether probable cause and exigent circumstances
supported the officers’ warrantless entry into Plaintiffs’
home?

ii
PARTIES TO THE PROCEEDINGS
Petitioners are William J. Cost and his son, William
J. Cost, Jr.
Respondents are the Borough of Dickson City,
Michael Ranakoski, and Michael McMorrow.

iii
STATEMENT OF RELATED PROCEEDINGS
Cost, et al. v. Borough of Dickson City, et al., 18-cv1494; 18-cv-1510, U.S. District Court for the Middle
District of Pennsylvania. Judgment entered October 15,
2020.
Cost, et al. v. Borough of Dickson City, et al., 203120, U.S. Court of Appeals for the Third Circuit.
Judgment entered June 3, 2021.
Cost, et al. v. Borough of Dickson City, et al., 203120, U.S. Court of Appeals for the Third Circuit.
Order entered July 6, 2021.

iv
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS. . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . v
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISION INVOLVED . . . . 1
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF CASE . . . . . . . . . . . . . . . . . . . . . . 3
REASONS FOR DENYING THE PETITION. . . . . . 6
I. There Is No Circuit Conflict Over the
Question Presented . . . . . . . . . . . . . . . . . . . . . 6
II. The Third Circuit’s Exigent Circumstances
and Probable Cause Analysis Does Not
Warrant Review . . . . . . . . . . . . . . . . . . . . . . 11
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

v
TABLE OF AUTHORITIES
CASES
Storey v. Taylor,
696 F.3d 987 (10th Cir. 2012). . . . . . . . 7, 8, 10, 11
United States v. Holloway,
290 F. 3d 1331 (11th Cir. 2002) . . . . . . . . . . . . . 10
United States v. Timmann,
741 F.3d 1170 (11th Cir. 2013). . . . . . . . 7, 8, 9, 10
CONSTITUTIONAL PROVISION
U.S. Const. amend IV. . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTES
28 U.S.C. §1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
OPINIONS BELOW
The Third Circuit’s opinion is reported at 2021 U.S.
App. LEXIS 16570. The Third Circuit’s denial of a
petition for rehearing on July 6, 2021 is attached to
Petitioners’ Petition for Writ of Certiorari. The district
court’s opinion is reported at 2021 U.S. Dist. LEXIS
190847 and is attached to Petitioners’ Petition for Writ
of Certiorari.
JURISDICTION
The Third Circuit entered judgment on June 3, 2021
and denied a petition for rehearing on July 6, 2021.
This Court has jurisdiction under 28 U.S.C. §1254(1).
CONSTITUTIONAL PROVISION INVOLVED
The Fourth Amendment, U.S. Constitution: “The
right of the people to be secure in their persons, houses,
papers, and effects, against unreasonable searches and
seizures, shall not be violated, and no Warrants shall
issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be
searched, and the persons or things to be seized.” U.S.
Const. amend IV.
INTRODUCTION
The Third Circuit decision does not warrant review.
This Court’s precedents and other circuit precedents
compelled the Third Circuit to conclude that exigent
circumstances justified the warrantless entry by the
officers, that probable cause supported the arrest of
Plaintiff-father, and that reasonable suspicion
supported the brief detention of Plaintiff-son. After

2
faithful application of precedent, the Third Circuit
determined that under the totality of circumstances the
Petitioners have not shown that Respondents violated
their Fourth Amendment rights in their claims for
unlawful search and seizure, false arrest, false
imprisonment, and malicious prosecution. The Third
Circuit’s decision creates no circuit split nor is there a
need for any clarification of existing law. The court
simply applied existing precedent to the unique facts of
the case. The court did not err in applying accepted
precedent. Moreover, this case is a poor vehicle for
certiorari as the decision below does not create a circuit
split and the exigent circumstances and probable cause
analysis does not warrant review. There is simply
nothing about the decision below that merits this
Court’s attention.
Petitioners’ reliance upon decisions from the Tenth
and Eleventh Circuits in an attempt to create the
appearance of a circuit split is without merit. Rather,
the Third Circuit simply applied accepted legal
precedent to the unique circumstances of Petitioners’
claims ultimately determining that Petitioners have
not shown that Respondents violated their rights.
The precedent applied by the Third Circuit is
uniform across all circuits that have considered similar
claims under the Fourth Amendment. While certain
outcomes of the various cases decided by the circuits
may be different, all circuits analyzing similar claims
utilize this same accepted legal precedent. This case
involved the court simply applying that accepted legal
precedent to the unique circumstances of this matter.
Given the Third Circuit’s careful application of

3
accepted legal precedent to the circumstances of this
matter, this case presents a poor vehicle for certiorari
review, and the Court should deny the Petition.
STATEMENT OF CASE
In a non-precedential decision, the Third Circuit
found that exigent circumstances justified the entry of
Officers Ranakoski and McMorrow into Plaintiffs’ home
absent a warrant, probable cause supported the arrest
of Plaintiff-father, and reasonable suspicion supported
the brief detention of Plaintiff-son. Thus, the Third
Circuit affirmed the district court’s granting of
summary judgment for Respondents.
The Third Circuit first examined whether an
exception to the requirement of obtaining a warrant
permitting the officers to enter Plaintiffs’ home existed
and then whether the officers had probable cause to
believe that a crime was being committed inside
Plaintiffs’ home. (App. A, at 8).
The Third Circuit determined that the 911 call by
Plaintiffs’ neighbor, Renee Giedieviells, and the shouts
the officers heard upon arrival at Plaintiffs’ home
presented exigent circumstances that permitted their
warrantless entry. (App. A, at 6). The Third Circuit
determined that these facts, together with the
confirmation by Heather Rought, the wife of William
Cost, Sr., that there was a loud fight inside the home
involving Cost, Sr. and their daughter, provided
reasonable suspicion to detain Cost, Jr. and probable
cause to arrest Cost, Sr. for disorderly conduct under
Pennsylvania law. (App. A, at 6). With this backdrop,
the Third Circuit affirmed the district court’s granting

4
of summary judgment in favor of Respondents on
Plaintiffs’ claims of unlawful search and seizure, false
arrest and imprisonment, and Plaintiff-father’s claim
of malicious prosecution. (App. A, at 6).
In finding that exigent circumstances justified the
officers’ warrantless entry into Plaintiffs’ home, the
Third Circuit noted that the 911 call advised that a
domestic dispute was occurring and that children were
present. The court noted that Officer McMorrow had
previously been to Plaintiffs’ home for a domestic
dispute. The court noted that the officers knocked at
the front and side doors of Plaintiffs’ home for several
minutes and announced their presence, but there was
no response from anyone inside the home which caused
them concern that someone inside needed aid. (App. A,
at 9). The court noted that the officers advised their
police chief of the situation, and the police chief also
believed that exigent circumstances existed. The court
then found that considering the totality of the
circumstances the officers reasonably believed that
someone inside the home was in imminent danger so
their forced entry into Plaintiffs’ home without
obtaining a warrant was justified. (App. A, at 9). Based
upon this rationale, the Third Circuit found that
Plaintiffs’ Fourth Amendment unlawful search claims
failed.
In addition, the Third Circuit determined that the
existence of probable cause defeated Plaintiffs’ claims
for unlawful search, false arrest, false imprisonment,
and malicious prosecution. After discussing the widely
accepted analysis for the existence of probable cause
and the wording of the disorderly conduct statute

5
under Pennsylvania law, the Third Circuit found that
the officers had probable cause to believe that a crime
was occurring when they arrived at Plaintiffs’ home.
(App. A, at 11). The court reached this conclusion based
upon the 911 call indicating a domestic dispute loud
enough to be heard across the street which amounted
to disorderly conduct under Pennsylvania law. In
addition, the court cited the fact that Heather Rought
advised the officers that Plaintiff-father was loudly
arguing with their daughter for about 30 minutes
regarding her cell phone, she took her children to get
away from him, and she refused to answer the door
when the officers knocked because she did not want to
leave her children alone upstairs coupled with the 911
call, the shouts for “Stop!” that the officers heard upon
arrival at the home, and Plaintiff-father’s refusal to
provide his identification provided a basis for a
reasonable police officer to conclude that Plaintifffather had committed a disorderly conduct offense
under Pennsylvania law. (App. A, at 11). Under these
circumstances, the Third Circuit determined that the
presence of probable cause defeated Plaintiffs’ claims
for unlawful search, false arrest, false imprisonment,
and malicious prosecution.
Thus, the Third Circuit determined that the district
court’s granting of summary judgment in favor of
Respondents was appropriate.

6
REASONS FOR DENYING THE PETITION
I. THERE IS NO CIRCUIT CONFLICT OVER
THE QUESTION PRESENTED
Contrary to Petitioners’ assertions, there is no
circuit split for this Court to resolve or clarify. The
Third Circuit’s decision is in line with similar cases
from other circuits and, significantly, there is no
decision from any circuit contradictory to the Third
Circuit’s decision in this case.
The Petitioners’ mischaracterization of a purported
circuit split underscores the baselessness of their
claims. Petitioners assert that the Third Circuit’s
decision is at odds with decisions from the Tenth and
Eleventh Circuits. (Petitioners’ Pet. 5). Petitioners’
assertion that the “Third Circuit permits law
enforcement to enter a home without a warrant based
on a 911 domestic call when there are no indicia of an
urgent, ongoing emergency” is contrary to decisions
from the Tenth and Eleventh Circuits is nothing more
than a spin attempt to invent a circuit conflict.
(Petitioners’ Pet. 5). This is a clear mischaracterization
of the Third Circuit’s decision. Nowhere in the decision
of the Third Circuit is it stated that the officers were
permitted to enter Plaintiffs’ home without a warrant
based solely on a 911 domestic call absent other
circumstances.
Petitioners falsely assert that the Third Circuit held
that the 911 call alone presented sufficient evidence of
exigent circumstances to allow the officers’ warrantless
entry. (Petitioners’ Pet. 6). Petitioners blatantly ignore
the other circumstances that existed that amounted to

7
the presence of exigent circumstances permitting the
warrantless entry as discussed in the Third Circuit’s
decision. Petitioners also falsely assert that the Third
Circuit “believed the officers had knowledge of prior
calls to Plaintiffs’ home but neither officer testified to
this.” (Petitioners’ Pet. 6). This assertion is false as the
Third Circuit correctly determined that Officer
McMorrow had previously been to Plaintiffs’ home in
response to a domestic dispute report. (App. A at 9, fn.
9). In fact, the evidence of record established that
Officer McMorrow had knowledge of past domestic
disturbances at Plaintiffs’ home which included the
possession of a weapon which on the day of the incident
caused him concern for the safety of occupants inside
the home, especially because he had heard someone
screaming “Stop!” upon arrival at the home.
Petitioners mistakenly rely upon the fact that after
the officers entered the home that no one needed
assistance or emergency care and that Cost, Sr. and Jr.
were simply sitting at the dining room table; this is
immaterial to the relevant legal analysis. These
conclusions are not pertinent to the analysis of whether
exigent circumstances existed to justify a warrantless
entry.
In an effort to create the illusion that a circuit
conflict exists, Petitioners rely upon the Eleventh
Circuit decision in United States v. Timmann, 741 F.3d
1170 (11th Cir. 2013) and the Tenth Circuit decision in
Storey v. Taylor, 696 F.3d 987 (10th Cir. 2012).
However, a review of these decisions reveals that no
such circuit conflict exists. Petitioners cite Timmann
for the proposition that the Eleventh Circuit requires

8
much more in terms of an urgent, ongoing emergency
occurring before officers can enter a home without a
warrant. Petitioners cite Storey for the proposition that
the Tenth Circuit requires more than a 911 domestic
call to permit law enforcement to enter a home without
a warrant and that a sole report of a domestic dispute
on its own does not demonstrate exigent circumstances.
(Petitioners’ Pet. 7). Petitioners cherry-pick a single
statement from Storey that a loud argument between
spouses does not suffice to justify a warrantless seizure
within the home. (Petitioners’ Pet. 7-8). Petitioners
conclude that there is a perceived circuit split because
of the decisions rendered by the Tenth and Eleventh
Circuits and that this Court should step in to resolve
the purported circuit split because of the Third
Circuit’s decisions in this case. However, a simple
analysis of the decisions in Storey and Timmann reveal
that there is no circuit split when measured against the
Third Circuit’s decision.
The underlying facts in Timmann are easily
distinguishable from the facts of this case. In
Timmann, the court found that “[t]he situation the
officers confronted in the instant case bears none of
these indicia of an urgent, ongoing emergency. The
officers here did not receive an emergency report
regarding an ongoing disturbance, but rather a service
call regarding what appeared to be a bullet hole, which
circumstances known to the officers indicated had been
made at least 39 hours prior to when the officers made
entry.’” Timmann, supra at 1180. The court further
determined that when the officer first arrived at the
scene “she did not encounter a tumultuous scene, nor
were the officers met with chaos when they returned to

9
the building the next day. The officers observed no
violent behavior, nor did they see or hear evidence that
a fight had taken place or that anyone had been
injured, other than finding a single bullet hole.” Id. at
1181. Thus, the court concluded that “[c]considering
the totality of the circumstances, it was not reasonable
for the officers to believe that someone inside
Timmann’s apartment was in danger and in need of
immediate aid. Therefore, we find that the District
Court erred in holding that the emergency aid
exception justified the officers’ warrantless entry into
Timmann’s apartment”. Id.
The situation in the within matter was entirely
different when the officers were dispatched to
Plaintiffs’ home. Prior to being dispatched to the scene,
a neighbor had called 911 to report yelling from
Plaintiffs’ home including a woman yelling “Help!” and
that it was believed children were inside. The
responding officers were aware of the 911 call prior to
arrival. When they arrived, they reported hearing
yelling, including a female screaming “Stop!” several
times. The officers noted that the home became quiet
when they approached the front door, and they knocked
and announced themselves at the front and side doors
several times over the next 10-15 minutes. When they
received no response from inside the home, McMorrow
contacted his police chief and obtained permission to
force entry into the home. The facts of this case clearly
differ to the facts in Timmann. In this case, it is clear
that the officers had received a previous emergency
report regarding an ongoing disturbance and upon
arrival at the scene, they heard shouting from inside
the residence by a female. Considering the totality of

10
these circumstances, the court correctly determined
that it was reasonable for the officers to believe that
someone inside the home was possibly in danger and in
need of immediate aid and, therefore, the warrantless
entry was justified.
The analysis of the Eleventh Circuit in Timmann
was based upon the unique existing circumstances as
was the Third Circuit’s decision in this matter. In fact,
the Eleventh Circuit held warrantless entry by officers
reasonable under circumstances in which “911 calls
indicated an ongoing emergency, which was confirmed
by the observations of the officers when they arrived on
the scene, and so the officers had ‘probable cause to
believe a person located at the residence was in
danger.’” Timmann, supra at 1180 (quoting United
States v. Holloway, 290 F. 3d 1331, 1338 (11th Cir.
2002)).
Likewise, the factual scenario in Storey is
distinguishable from the within matter. The Tenth
Circuit in Storey found that exigent circumstances did
not exist for an officer to order a homeowner out of his
house based solely on a report of a domestic argument.
In arriving at its decision, the Tenth Circuit found that
“a report of a loud argument – without more – that has
ceased by the time an officer arrives, although relevant
to the exigent circumstances inquiry, does not alone
create exigent circumstances to justify a warrantless
arrest.” Storey, supra at 996. The court noted that for
exigent circumstances to be found some additional facts
beyond the domestic argument must exist to support
the finding of exigent circumstances. The situation in
Storey is entirely different than the situation in the

11
within matter. In the within matter, after receiving the
911 call of a reported domestic dispute, upon arrival at
the scene the officers themselves heard a woman inside
the residence yelling “Stop!” several times. The home
then became quiet when the officers approached the
front door. The attempts by the officers to contact the
occupants of the home failed. In addition, McMorrow
was aware of past domestic calls involving possible
firearms at Plaintiffs’ home prior to the day in
question. Taking all of these additional facts into
consideration, it is apparent that the Storey decision
was made based upon its own unique set of
circumstances inapposite to the within matter. The
decision in Storey based upon its unique set of facts
certainly does not create a circuit split.
II. THE
THIRD
CIRCUIT’S
EXIGENT
CIRCUMSTANCES AND PROBABLE
CAUSE ANALYSIS DOES NOT WARRANT
REVIEW
Petitioners erroneously argue that the Third
Circuit’s decision is incorrect. Once again, Petitioners
mischaracterize the Third Circuit’s legal and factual
analysis to manufacture a certiorari-worthy issue.
The Third Circuit correctly applied the accepted
legal precedent with respect to the existence of exigent
circumstances and probable cause and rendered a
narrow decision grounded in the unique facts of this
case. While Petitioners may disagree with the Third
Circuit’s reasoning, their Petition amounts to nothing
more than an unsubstantiated request for this Court to
review the perceived errors of the Third Circuit’s
decision.

12
For instance, Petitioners assert simply that
summary judgment should have been entered by the
district court “in their favor since the sanity (sic) of the
home demanded that a police officer not kick down the
door to a family home when absolutely no noise was
heard when the officers arrived at the doorstep of the
home even though Respondents had been dispatched to
the home based on a 911 domestic disturbance.”
(Petitioners’ Pet. 8-9). Furthermore, Petitioners simply
assert that allowing “police officers to kick down a door
to a family home when there is no evidence of a chaotic
scene or injury is wrong and this Court should teach
the lower courts to hold law enforcement accountable
for illegally entering a home and causing damage” fails
to establish how the reasoning of the Third Circuit’s
decision is incorrect under applicable law. (Petitioners’
Pet. 9). Not surprisingly, Petitioners fail to perform any
analysis of applicable law to the facts of this case to
demonstrate the alleged incorrectness of the Third
Circuit’s decision.
Finally, Petitioners argue that an issue of material
fact existed as to whether exigent circumstances were
present to justify the officers’ warrantless entry,
however, Petitioners again fail to set forth any analysis
of applicable law in support of this argument.
Petitioners argue that since Heather Rought denied
yelling “Stop! Stop!” and the officers acknowledged that
the voice they heard from inside the residence was a
female that this somehow creates an issue of material
fact as to whether exigent circumstances existed.
Firstly, Petitioners fail to cite any case law in support
of this argument. Secondly, Petitioners mistakenly
assert that the only female in the home at the time of

13
the incident was Heather Rought who denied ever
yelling “Stop! Stop!” that the officers claim they heard.
Petitioners clearly ignore the undisputed fact that
Cost, Sr. and his daughter (a female) were engaged in
a loud argument that lasted at least 30 minutes. (App.
B, at 4).
Petitioners conclude that if hearing someone yell
“Stop! Stop!” is sufficient to allow a forced entry into a
home that a disputed issue of material fact exists; this
is without merit. Firstly, Petitioners provide no
analysis of applicable law in support of this argument.
Secondly, Petitioners completely ignore the totality of
the circumstances that existed and cling to only one
piece of the puzzle that the officers heard a female
yelling “Stop! Stop!” from inside the home upon arrival.
Respondents maintain that this mischaracterization
does not create a disputed issue of material fact to
overcome summary judgment.
***

14
CONCLUSION
For the foregoing reasons, the Petition for Writ of
Certiorari should be denied.
Respectfully Submitted,
PATRICK J. MURPHY, ESQUIRE
Counsel of Record
BARDSLEY, BENEDICT + CHOLDEN, LLP
201 Lackawanna Avenue, Suite 300C
Scranton, PA 18503
(570) 344-9444
pmurphy@bbclawfirm.com
Counsel for Respondents
Date: September 30, 2021

